t, . '


Depa,rtment of Health and Human Servces
          OFFICE OF
     INSPECTOR GENERAL




         YOUTH AND ALCOHOL:
DANGEROUS AND DEADLY CONSEQUENCES




                     VI'

                           Rich"d P. Ku,"crow
              J((
                           INSPECTOR GENERA
         "0



                    d!a         APRI 199
                         OFFCE OF INSPECTOR GENERA
The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95-452, as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servce, the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program , and management problems , and recommends courses to correct
them.

                             OFFCE OF AUDIT SERVICE
The GIG's Offce of Audit Servce (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in carrng
out their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste , abuse, and mismanagement and to promote
economy and effciency throughout the Department.

                             OFFICE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions , administrative sanctions
or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFCE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department , the
Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerability, and
effectiveness of departmental programs.

This report was prepared under the direction of Kaye D. Kidwell , Regional Inspector General
and Paul A Gottlober, Deputy Regional Inspector General , Offce of Evaluation and Inspections
Region IX. Participating in this project were:

Region IX                                                  Headquarers
Elizabeth Bell                                             Maruta Zitans
Brad Rolln
Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




      YOUTH AND ALCOHOL:
DANGEROUS AND DEADLY CONSEQUENCES




         VI'
               Richard P. Kusserow
               INSPECTOR GENERA

      ':d!         OEI-0-92-01
                                           . .........................................
                                    ..... ...........
                   . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ..




                          TABLE OF CONTENTS


INODUCTON                                                                                                                             . . . . . . . . . . . . . . 1

SUMY OF REEACH                                         FIINGS

      Crie. .                                                                                                           . . . . . . . . . . . . . . . . . . 2

      Victims of Crime


      Rape and Sexual Assault. . . . . . . .  .................................3




      Risky Sexual Behavior. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


      Suicide. . . . . . . . . . . .                                               ............................... 3


      Water-Related Injuries and Drownng. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


      Campus-Related Problems. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



BmuOGRAHY                                                                                                                             . . . . . . . . . . . . A-
                                           INTRODUCTION

PURSE
The purpose of this study was to describe the dangerous and often unrecognized
consequences of underage drinking.

BACKGROUN
As part of her campaign against underage drikig, the Surgeon General requested
that the Offce of Inspector General (OIG) provide information on some of the
negative consequences of youth alcohol use. This concern mirrors one of the

Department of Health and Human Servces Secretary s goals which is to reduce the
prevalence of alcohol problems among children and youth. As part of his strategy to
meet this goal , the Secretary sponsored " Healthy PeoplelHealthy Environments: The
Secretary s National Conference on Alcohol- Related Injuries " on March 23- , 1992.
This conference served as a call- to-action and a forum for health professionals to help
advance the alcohol and injury-related objectives of   Healthv People 2000 . This study
is one in a series conducted by the OIG related to youth and alcohol. A related
report, " Youth and Alcohol: Drinking and Crie " (OEI- 09-92- 00260), describes the
association between alcohol and youth crie.

Although extensive research exists related to the negative consequences of adult
alcohol use, few national studies have attempted to assess the relationship between
underage drinking and rape, sexual assault, suicide, and other harmful incidents.
Researchers who attempt to link youth alcohol use with injuries and other problems
face legal and scientifc barriers. For example , one survey found that emergency room
physicians rarely will administer blood alcohol tests unless an injury was automobile-
related or the test is vital to a patient' s treatment.

Most studies and data related to the negative consequences of underage drinkig
focus on traffic fatalities. For instance , the National Highway Traffc Safety
Administration reported that 34. 8 percent of drivers ages 18 to 20 and 18. 9 percent of
drivers ages 15 to 17 who were involved in fatal automobile crashes in 1989 had
alcohol in their system. Although few national data concerning other problems exist
researchers focusing on local populations have uncovered startlng data concerning
alcohol use among youth who experience serious injuries or unintentional death.

METHODOLOY
Using several University of California on-line database servces , we conducted a
review of medical , legal, psychological , and other social research studies and surveys
related to the negative consequences of youth alcohol use. We also referred to
articles and data obtained durig our previous youth and alcohol studies.
 SUMMARY OF RESEARCH FINDINGS


The Department of Justice (DOJ) and other researchers at times have attempted to
determine the extent to which underage driking is associated with criminal activity.
These researchers have found a strong association between alcohol use and crimes of
aggression, such as murder and rape.

       According to a DOJ survey, 31.9 percent of youth under 18 in long-term , State-
       operated juvenile institutions in 1987 were under the infuence of alcohol at the
       time of the offense. ( 46)


       A DOJ ll-city survey found that from 4 to 32 percent of male juvenile
       arrestees admitted using alcohol in the 72 hours prior to their arrest. ( 47)

       A 1974 survey of youth under 21 in State adult correctional facilities found that
       approxiately 36.4 to     38. 6   percent reported drinking at the time of the
       offense. (9)

       One researcher reported that almost 50 percent of German juvenile offenders
       surveyed in 1971 were intoxicated when they committed criminal offenses. For
       crimes of aggression--such as murder, robbery, rape, and assault-- the rates were
       rather higher.   (17)

VICT OF
Studies of various populations have shown that many victims of violent crime are
intoxicated at the time of the incident. While this problem is most frequently noted in
rape victims , victims of other crimes exhibit similar high levels of intoxication.

       In a national survey of college students ,
                                               almost 50 percent who said they had
       been victims of crime admitted that they had used drugs or alcohol before the
       crime occurred. (I2)

       A study of homicide victims in Atlanta , Georgia, found that 51 percent had
       blood alcohol levels of . 10 percent or greater.(4)

       One social science researcher observed that minors who drink may provoke
       assailants or otherwse catch the attention of criminals by handling money
       openly, acting vulnerable , or failing to take normal precautions in public. (38)



    . For further information , see the OIG report ' 'Youth   and Alcohol: Drinking and Crime.
                              , "





RAE AN SEXUAL ASAULT
Researchers estimate that alcohol use is implicated in one- to two- thirds of sexual
assault and acquaintance or " date " rape cases among teens and college students.

       In a survey of students at a southwestern university, 55 percent of sexual assault
       perpetrators and 53 percent of sexual assault victims admitted to being under
       the influence of alcohol at the time of the assault. (23)

       According to a school administrator, 100 percent of sexual assault cases at the
       University of Colorado involve alcohol.(I)

      A study of college women nationally found that alcohol use is one of the
      strongest predictors of a college woman s rape. (2)

       A survey of high school students found that 18 percent of females and
       39 percent of males say it is acceptable for a boy to force sex if the girl is
       stoned or drunk.(23)

RIKY SEXUAL BEHVIOR

behavior.
Alcohol use is associated with the early onset of sexual activity and with risky sexual


      A study of ninth grade students from four urban high schools showed that the
      best predictor of risky sexual behavior was alcohol and/or drug use. ( 40)

       Other studies of adolescents have shown that the use of substances , including
       alcohol and tobacco , are associated with early sexual debut and an inadequate
       use of contraceptives. ( 40)


      A 1990 survey of Massachusetts 16- to 19-year-olds found that 49 percent were
       more likely to have sex if they and their partner had been drinkg. In
       addition,   17 percent used condoms less often after dring. ( 42)


      The National Longitudinal Survey of Youth found that substance use and
      sexual activity are more closely linked for white youth than they are for
      minority youth. (I4)


SUICIDE

According to one researcher Suicide among American teenagers is increasing at an
alarming though underestimated rate. " Alcohol acts as a contributing factor in the
timing and seriousness of youth suicide attempts. Although youth may use alcohol in
an attempt to reduce stress and pressure , this frequently results in additional self-
destructive behavior.
       In a detailed analysis of youth suicide   , one researcher found that drug and
       alcohol abuse is the most common characteristic of youth who attempt suicide.
      Seventy percent of youth suicide attempters were frequent drug and/or alcohol
      users. In addition , he noted a high incidence of drug and alcohol abuse among
      youth suicide attempters ' parents. (ll)

      Based on rising youth suicide rates , three researchers conducted a study on
      10- to 19-year-old suicide victims in Alegheny County (P A). They found "
      striking association. . . between the ingestion of alcohol and the use of firearms
      as a method of suicide. " They conclude that " the epidemic increase in the
      suicide rate among youth may be associated with an increase in the prevalence
      of alcohol abuse. (3)

WATER-REIATE          INJU AN DROWNG
Although swiming, boating, and diving are popular activities among youth , they can
be deadly, especially when the participants consume alcohol before or during these
water activities. According to national data , drowning is the second leading cause of
injury-related death among adolescents and young adults. One researcher named
alcohol and/or drug use as the primary factor contributing to adolescent swimming,
boating, and diving drownings.



      Two studies that have attempted to link youth alcohol use and drowng found
      that from 40 to 50 percent of young males who drown used alcohol prior to
      drowning. (33)(5I)

      According to national data , the ratio of young males who drown after boating
      incidents outnumbers females 12 to 1. Alcohol particularly may affect a youth'
      balance , resulting in the boat capsizng or the youth fallng overboard. (33)

      A detailed study of the factors contributing to youth drowning indicated that
      alcohol may severely affect a young swimmer s coordination and judgment.
      Peer pressure may cause youth to attempt to swim        beyond their abilty. On a
      dare , a youth might experience overconfidence if under the influence of
      alcohol. At the same time , the youth might underestimate the length of swim
      or the water s currents. (33)

      Researchers have documented that 40 to 50 percent of all diving injury victims
      consumed alcoholic beverages. Again , alcohol may impair judgment , resulting
      in a youth underestimating the challenge. (34)
CAMUS-RETE PROBLEMS
A researcher who reviewed studies on college drinking found that missing classes
missing work, and not studying were the most frequently noted alcohol-related
problems. Other researchers have linked alcohol use with more serious campus
problems.

      In a national survey, college administrators estimated that student alcohol use
      leads to 69 percent of damage to residence halls , 34 percent of academic
      problems , and 25 percent of dropouts. (7)

      A Towson State (MD) University study found that alcohol was a factor in
      98 percent of student conduct violation cases. (22)
                              ,,,"",","", "                                               , "   ),




                                       BIBLIOGRAPHY€
(1)                               Drugs and Alcohol: Flirting With Trouble USA Todav
                   October 4 ,      1988, p. 6A

(2)    Abbey, Antonia Acquaintance Rape and Alcohol Consumption on College
                                             Journal of American College
                   Campuses: How Are They Linked?"

             Health. January 1991, pp. 165-

(3)    Brent , David A. , Perper, Joshua A. , and Allman , Christopher J. Alcohol
               Firearms , and Suicide Among Youth--Temporal Trends in Allegheny
                   County, Pennsylvania , 1960 to 1983                  Journal of the American Medical
                  Association.            June 26 ,     1987, pp. 3369- 72.

(4)    Berkelman , Ruth L. , Herndon , Joy L. , Callway, Naice L, Stivers , Robert , et aI
              Fatal Injuries and Alcohol " American Journal of Preventive Medicine
                  NovemberlDecember 1985 , pp. 21-

(5)    Burger, Mary c. , Lichtenstein , Michael J. , Hays , J. Taylor, and Decker
                  Michael D. Association of Self- Reported Injury and Alcohol
                  Consumption in Medical Outpatients Journal of General Internal
                  Medicine. NovemberlDecember 1990 , pp. 486-

(6)    Carmody, Deirdre Colleges Tightenig Discipline As                         Disruptive Behavior
            Grows New York Times. February 14, 1990.

(7)    Carnegie Foundation for the Advancement of Teaching,                        Campus Life: In
                  Search of Community. 1990.

(8)    Coid , Jeremy, "Alcohol , Rape , and Sexual Assault " in P. Brain (ed. Alcohol
               and Aggression , 1986 , pp. 161- 83.

(9)    Collns , James J. Alcohol Careers and Criminal Careers " in Collns, (Ed.
              Drinking and Crime: Perspectives on the Relationships Between
              Alcohol Consumption and Criminal Behavior , 1981 , pp. 152-206.

(10)   Cook, Philp J. The Social Costs of Drinking, " unpublished preliminary draft
                  July 1990.



(11)   Curran , David K. Adolescent Suicidal Behavior , Hemisphere Publishing
              Corporation, Washington , D. , 1987.

(12)   Dodge , Susan Campus Crime Linked to Students ' Use of Drugs and Alcohol
             The Chronicle of Higher Education. January 17, 1990, pp. A33-
                 ,, "" , "   , "    , "     , " , "           , " ),   , "




(13)   Ehrhart, Julie K. and Sandler, Bernice R. Campus Gang Rape: Party Games?
             Center for Women Policy Studies , Washington , D. , 1985.

(14)   Ensminger, Margaret E. Sexual Activity and Problem Behaviors Among Black
             Urban Adolescents Child Development. 1990 , pp. 2032- 46.

(15)   Evans , Charles M. Alcohol and Violence: Problems Relating            to Methodology,
              Statistics , and Causation " in P. Brain (ed. Alcohol and      Aggression.
              1986 , pp. 138- 59.

(16)   Farhi, Paul Spring-Break Beer Messages Draw Fire Washington Post
              March 28, 1990, p. F1.

(17)   Gerchow, Joachim Alcohol Use and Juvenile Delinquency, Child Health , v. 2
              pp. 127- 135.


(18)   Heys , Sam Threat of Gang Rape Looms as Fact of Life for College Women
               Atlanta Journal Constitution , June 7 , 1988 , p. IA.


(19)   Jenny, Carole  Adolescent Risk- Taking Behavior and the Occurrence of Sexual
              Assault American Journal of Diseases of Children. July 1988, pp. 770-

(20)   Leatherman , Courtney, "College Offcials are Split on Alcohol Policies; Some
             Seek to End Underage Drinking; Others Try to Encourage ' Responsible
             Use The Chronicle of Higher Education, January 31 , 1990, pp. A33-

(21)   Lowenfels , Albert B. and Miler , Theodore T. Alcohol and Trauma Annals
              of Emergency Medicine. November 1984 , pp. 1056- 60.

(22)   Masters , Brooke A. and Leff, Lisa The Drug of Choice: Schools Call Alcohol
             Top Problem Washington Post. March 31 , 1991.

(23)   Muehlenhard , Charlene L. and Linton , Melaney A. Date Rape and            Sexual
            Aggession in Dating Situations: Incidence and Risk Factors             Journal of
              Counseling Psychology,       1987, pp. 189- 96.

(24)   Nagy, Stephen , Hunt , Barry, and Adcock , Anthony, " A Comparison of        AIS
             and STD Knowledge Between Sexually Active Alcohol Consumers and
             Abstainers Journal of School Health , August 1990, pp. 276-

(25)   National Education Association          The Deterioration of Campus Life Higher
             Education Advocate,          May 24,     1990.


(26)   National Familes in Action, "Alcohol Use High Among Boaters , Swimmers
             Drug Abuse Update December 1990 , p. 5.
(27)                 Alcohol Use Linked With Sexual Assault , Gang Rape on
             College Campuses Drug Abuse Update , March 1989, p. 17.

(28)                Campus Administrators Disagree Over Alcohol Policies Drug
             Abuse Update, September 1990, p. 16.

(29)                   Campuses Report Increasing Violence Drug Abuse Update
             September 1990 ,      p. 12.


(30)                College Students Report Strong Link Between Substance Abuse
             and Campus Crime Drug Abuse Update , September 1990 , p. 12.

(31)   Newman , Ian M. , Crawford, Janet K. , and Nells , Margaret J. The Role        and
           Function of Drinking Games in a University Community, Journal              of
           American College Health. January 1991 , pp. 171-

(32)   Ordovensky, Pat     Sad Truth is ' Serious Crime is Rampant'    USA Today
             October 4 ,   1988, p. IA.

(33)   Orlowski , James P. Adolescent Drowngs: Swiming, Boating, Diving, and
             Scuba Accidents Pediatric Annals February 1987 , pp. 125- , 131-

(34)                  Drownng, Near-Drowning, and Ice- Water Submersions
             Pediatric Clinics of North America , February 1987 , pp. 75- 92.

(35)   Pipkin , Nicky L. , Walker, L. G. , and Thomason , Michael H. Alcohol and
               Vehicular Injuries in Adolescents Journal of Adolescent Health Care
             1989 , pp. 119- 21.

(36)   Raiford , Possie Alcohol Takes Dreadful Toll on College Campuses Drug
             Abuse UjJdate, September 1990 ,     p. 2.



(37)   Rapaport, Karen and Burkhart , BaIT B., "Personality and Attitudinal
             Characteristics of Sexually Coercive College Males       Journal of
             Abnormal Psychology, 1984, pp. 216- 21.

(38)   Room , Robin Alcohol and Crime: Behavioral Aspects " in         S.   H. Kadish (ed.
             Encyclopedia of Crime and Justice, 1983 , pp. 35- 44.

(39)   Saltz, Robert and Elandt, Donna College Student Drinkng Studies
              1976- 1985   Contemporary Drug Problems ,    Spring 1986 , pp. 117- 32.

(40)   Shafer, Mary-Ann and Boyer, Cherrie B. Psychosocial and Behavioral Factors
              Associated With Risk of Sexually Transmitted Diseases , Including
              Human Immunodeficiency Virus Infection, Among Urban High School
              Students Journal of Pediatrics , November 1991, pp. 826- 32.
(41)   Simel , David L. and Feussner, John R., " Blood Alcohol Measurements in the
             Emergency Department: Who Needs Them?"              American Journal of
             Public Health. November 1988, pp. 1478-

(42)   Strunin, Lee , and Hingson , Ralph Alcohol , Drugs , and Adolescent Sexual
              Behavior International Journal of the Addictions , February 3 , 1992
             pp. 129- 146.


(43)     S. Department of Health and Human Servces , Public Health Servce
             Alcohol , Drug Abuse , and Mental Health Administration , National
             Institute on Alcohol Abuse and Alcoholism Alcohol and Health
             January 1990.


(44)                 Public Health Servce , Centers for Disease Control
              Alcohol-Related Traffc Fatalities Among Youth and Young Adults--
             United States , 1982- 1989 Morbidity and Mortality Weekly Report
             v. 40, no. 11 , March 22, 1991 , pp. 178- , 185-

(45)                 Public Health Servce, Centers for Disease Control North
             Carolina Drownings , 1980- 1984 Morbiditv and Mortality Weeklv
             Report, v. 35 , no. 40, October 10, 1986, pp. 635-

(46)     S. Department of Justice , Offce of Justice Programs , Bureau of Justice
             Statistics Survey of Youth in Custody, 1987 Bureau of Justice Statistics
             Special Report.             September 1988.
(47)                       Offce of Justice Programs , National Institute of Justice Drugs
             & Crime: 1990 Annual Report           Drug Use Forecasting, August 1991.

(48)   Wechsler, Henry and McFadden, Mary, "Drinking Among College Students in
            New England Journal of Studies on Alcohol 1979, pp. 969- 96.

(49)   West , Robert , Drummond , Colin, and Eames, Kate Alcohol Consumption
              Problem Drinking, and Anti- Social Behaviour in a Sample of College
              Students British Journal of Addiction , 1990, pp. 479- 86.

(50)   Wintemute , Garen J. Childhood Drowning and Near-Drownng in the United
            States American Journal of Diseases of Children , June 1990 , pp. 663-

(51)                , Kraus , Jess F. , Teret , Stephen P. , and Wright , Mona Drowning
             in Childhood and Adolescence: A Population- Based Study, American
             Journal of Public Health , July 1987, pp. 830-
